                                    September 27, 2000

MEMORANDUM

TO:            Valerie Dickson-Horton, Deputy Assistant Administrator,
               USAID’s Bureau for Africa

FROM:          Henry Barrett, RIG/Dakar

SUBJECT:       Audit of the USAID Bureau for Africa's Implementation of the Federal
               Managers' Financial Integrity Act, Report No. 7-698-00-009-P

This memorandum is our final report on the subject audit. We have considered your
comments to the draft report and have included them as Appendix II. This audit report
contains three recommendations. Based on your comments to the draft report, we consider
that USAID’s Bureau for Africa has made a management decision at this time on all of
the recommendations. Please notify USAID’s Management Innovation and Control
Division, M/MPI/MIC, when final actions are completed.

I appreciate the cooperation and courtesies extended to my staff during the audit.

________________________________________________________________________
Background

The Federal Managers' Financial Integrity Act of 1982 (FMFIA) establishes requirements
with regard to management accountability and controls. This law encompasses program,
operational, and administrative areas as well as accounting and financial management.
Under the authority of the FMFIA, the Office of Management and Budget (OMB) issued
Circular No. A-123 to provide detailed guidance for assigning Federal managers the
responsibility for designing management structures that help ensure accountability and
include appropriate cost-effective controls.

OMB Circular No. A-123, Management Accountability and Control, states that
management controls are the organization, policies and procedures used to reasonably
ensure that (1) programs achieve their intended results; (2) resources are used consistent
with agency mission; (3) programs and resources are protected from waste, fraud, and
mismanagement; (4) laws and regulations are followed; and (5) reliable and timely
information is obtained, maintained, reported and used for decision making. The Circular
provides guidance to Federal managers on improving the accountability and effectiveness of
Federal programs and operations by establishing, assessing, correcting, and reporting on
management controls.
USAID has issued Automated Directives System (ADS) Chapter 596, Management
Accountability and Control, which provides USAID's policies and procedures for
establishing, assessing, correcting, and reporting on management controls under the FMFIA
and OMB Circular No. A-123. Additional guidance for assessing the adequacy of
management controls and annual instructions for reporting the status of management
controls are periodically provided by the USAID Bureau for Management's Office of
Management Planning and Innovation (M/MPI).


________________________________________________________________________
Audit Objectives

The Office of the Regional Inspector General, Dakar (RIG/Dakar) performed this audit as
part of the Office of Inspector General’s decision to audit USAID’s implementation of the
FMFIA. Specifically, we audited the USAID Bureau for Africa to answer the following
audit objectives:

•   Has the USAID Bureau for Africa established management controls and periodically
    assessed these controls to identify deficiencies in accordance with the Federal
    Managers' Financial Integrity Act and related regulations and guidance?

•   Has the USAID Bureau for Africa reported material weaknesses in accordance with the
    Federal Managers' Financial Integrity Act and related regulations and guidance?

•   Has the USAID Bureau for Africa taken timely and effective action to correct identified
    management control deficiencies in accordance with the Federal Managers' Financial
    Integrity Act and related regulations and guidance?

Appendix I includes a discussion of the scope and methodology for this audit.


________________________________________________________________________
Audit Findings

Has the USAID Bureau for Africa established management controls and
periodically assessed these controls to identify deficiencies in accordance
with the Federal Managers' Financial Integrity Act and related
regulations and guidance?

The USAID Bureau for Africa (hereinafter referred to as the Bureau) established
management controls and assessed them but did not fully assess the controls in
accordance with the Federal Managers' Financial Integrity Act (FMFIA) and related
regulations and guidance. The Bureau’s assessment was not in compliance with USAID's
guidance because it did not formally designate a Management Accountability Official


                                             2
(MAO) nor collectively evaluate the identified control deficiencies. Additionally, the
Bureau did not adequately document its assessment process.

According to Bureau officials, the Bureau primarily follows policies and procedures as
stated in USAID's ADS. Additionally, the Bureau has control procedures that
supplement the requirements described in the ADS. The Bureau is currently developing
Africa Bureau Standard Operating Procedures (ASOPS) that will provide additional
clarification to the ADS guidance and codify existing Bureau procedures.

For Fiscal Year (FY) 1998, the Bureau took an organized approach in completing the FY
1998 FMFIA assessment. One individual in the Bureau was given the responsibility for
acting as the Management Accountability Official (MAO), managing the Bureau’s
implementation of the FMFIA assessment, explaining to the assessment participants the
procedures for the FY 1998 FMFIA assessments, and preparing a timetable for conducting
the review. The Bureau formally distributed the USAID/Washington provided FMFIA
guidance on control techniques, along with instructions, to cognizant offices within the
Bureau. The guidance included a checklist containing 74 control techniques applicable to
the Bureau. The following table highlights the areas addressed by these control techniques.




                             CONTROL TECHNIQUES

            CATEGORY                                           NUMBER

            Program Assistance                                     23
            Financial Management                                    2
            Acquisition and Assistance                              6
            Audit Management and Resolution                         5
            Organization and Human Resources Management            14
            Information Management                                 18
            Administrative Services                                 3
            Other                                                   3
                               TOTAL                               74




Upon receipt of the checklist, each of the Bureau’s offices determined whether the controls
in their assigned areas were satisfactory. After the assessments were completed by the
various Bureau offices, the manager of each office submitted to the Bureau’s MAO a
certification stating that the specific office had performed an assessment of its management
controls and described any material weaknesses that were identified. Also, the Bureau’s
MAO received individual certifications from the Bureau’s country missions that described
the material management control weaknesses that the missions had identified during their
yearly management control assessments. The Bureau’s MAO reviewed the certifications
received from the missions and the Bureau’s Washington offices and determined which
weaknesses were material from an overall Bureau perspective and, therefore, should be

                                               3
reported to the Administrator as material weaknesses for the Bureau.

Although the Bureau conducted an organized review of its internal controls, it did not follow
USAID's guidance in that it did not formally designate and describe the duties of a
Management Accountability Official (MAO) to provide oversight of the Bureau’s
management control assessment. Additionally, the Bureau did not formally establish a
system to evaluate its identified control deficiencies nor did it document all stages of its
internal control assessment process. These weaknesses in the Bureau’s assessment process
are discussed below.

Bureau Did Not Formally
Establish a System to Evaluate
Its Identified Control Deficiencies

Agency guidance requires that the Bureaus evaluate known deficiencies and appoint a
Management Accountability Official (MAO) to oversee each Bureau's management control
processes. During its FY 1998 FMFIA assessment, the Bureau did not comprehensively
evaluate its identified weaknesses nor did it formally appoint an MAO to oversee its
assessment process. Bureau officials stated that they believed including a brief description of
the MAO’s duties in an employee’s job description was an acceptable alternative to formally
appointing a MAO. Regarding its method of evaluating the results of its management
assessment, the Bureau stated that it originally believed, based on the nature of its
operations, that its method of evaluating its assessment results was sufficient. However, by
not formally establishing and describing the role of a MAO, and not establishing a
comprehensive system to evaluate the results of the control assessment, the efficiency and
effectiveness of the assessment process is negatively impacted.

Recommendation No. 1: We recommend that USAID’s Bureau for Africa:

1.1 formally appoint a Management Accountability Official for the Bureau by means
    of an Africa Bureau Standard Operating Procedure. The Procedure should
    describe the official’s role and responsibilities relating to the oversight and
    coordination of management accountability and control issues in the Bureau
    including the Bureau’s management control assessment process.

1.2 establish by means of an Africa Bureau Standard Operating Procedure a
    committee to oversee the Bureau’s management control processes and assessment.
    The Procedure should describe the role and responsibilities of the committee
    including its responsibilities related to the Bureau’s management control
    assessment and the tracking and resolution of the identified control weaknesses.

USAID’s Automated Directives System (ADS) 596.5 requires that the Bureau evaluate
known management control deficiencies. Additionally, ADS 596.3 requires the Bureau, as
an assessable unit, to appoint a Management Accountability Official who oversees and
coordinates management accountability and control issues with the organizational unit (i.e.
the Bureau).

                                              4
During the FY 1998 and 1999 assessments of its management controls, the Bureau tasked
one individual in its Office of Development Planning with the responsibility to monitor and
oversee the Bureau’s FMFIA assessment process. The Bureau did describe in the
individual’s position description that he was to review missions’ vulnerability assessments
and to initiate Bureau actions to resolve identified control weaknesses. However, the
Bureau did not formally designate this person in writing as the Management Accountability
Official (MAO), nor did it specifically describe all of his duties as the MAO. Also, the
Bureau had not, as of the audit, established a means by which the Bureau can review
materiality and validity of control weaknesses identified during its assessments and the
status of corrective actions to resolve identified weaknesses. Bureau officials stated that
they believed including a brief description of the duties relating to vulnerability assessments
and implementation of actions to address identified weaknesses in an employee’s job
description was an acceptable alternative to formally appointing a MAO. Regarding its
method of evaluating the results of its management assessment, the Bureau stated that it
originally believed, based on the nature of its operations, that its method of evaluating its
assessment results was sufficient.

By not clearly assigning the MAO responsibilities and forming a Bureau committee to
review management issues, the Bureau cannot ensure that its yearly FMFIA assessments are
conducted efficiently and that the identified management control weaknesses are resolved in
a timely manner. We therefore recommend that the Bureau formally appoint a MAO and
form a management control committee clearly describing their duties. This description
would include their specific roles relating to reviewing the Bureau’s assessment
documentation, tracking the resolution of identified control weaknesses, and determining the
materiality of control weaknesses identified both at the missions and the Bureau’s
Washington offices.

Bureau Did Not Document All Stages
of Its Internal Control Assessment Process

The U.S. General Accounting Office standards for internal control and USAID's ADS
require the Bureau to document its internal control systems. As part of its control systems,
the Bureau, in compliance with instructions from USAID/Washington and ADS 596,
assessed its internal management controls but did not adequately document all components
of its assessment. This occurred because the Bureau believed that the extent of
documentation that it gathered was sufficient and did not realize the necessity of
requiring greater documentation for its assessment process. The effect of not fully
documenting its FY 1998 assessment is that the Bureau cannot demonstrate that it
adequately assessed its internal controls nor monitored the resolution of identified
weaknesses.

   Recommendation No. 2: We recommend that USAID’s Bureau for Africa
   establish procedures to fully document all components of the assessment process
   it performs of its internal controls in compliance with the Federal Managers’
   Financial Integrity Act.

                                              5
USAID's ADS 596.5 requires that the Bureau develop, maintain and implement appropriate
management controls for results-oriented management and that it continuously assess and
improve the effectiveness of its management controls. An important management control is
the Bureau’s assessment of its internal controls as required by USAID/Washington in
satisfying the provisions of the FMFIA. USAID's ADS 596.5.1 and the United States
General Accounting Office Standards for Internal Controls in the Federal Government
require that the documentation for management controls shall be clear and readily available
for examination.

Although the Bureau did assess its internal controls, it did not adequately document all
components of its assessment process. Primarily, complete Bureau documentation was
lacking in the following areas: the control technique questionnaire, determination as to
whether an identified weakness was material or non-material, and the tracking of the
corrective action for identified weaknesses.

Control Technique Questionnaire

The Bureau used a control technique questionnaire sent to the Bureau by USAID’s M/MPI
as its principal tool in assessing its internal controls. The questionnaire identified key
control techniques that were to be assessed. The Bureau had each of its six principal offices
assess the adequacy of the control techniques that pertained to each specific office. After
completing the questionnaire each individual office submitted a completed certification that
included the material weaknesses identified during their respective assessments. However,
the Bureau did not require each individual office to submit their completed questionnaires
along with their certification to the MAO. We found during our audit that neither the
Bureau’s MAO nor all of the Bureau’s individual offices retained the completed
questionnaires that supported the assessment process. For those questionnaires that were
maintained, it was not clearly described who actually participated in the assessment of the
control techniques. Also, we found in a few questionnaires the control techniques were
rated as “No” (i.e. control technique not satisfactorily implemented) or “?”. However, we
found no documentation to support how these instances of identified weaknesses were
addressed. Additionally, there was no documentation to describe the reason the specific
control technique that was assessed was determined to be either satisfactory or
unsatisfactory.

Material Versus Non-material

For each control weakness identified in the questionnaire by the Bureau’s assessment
participants, the staff had to make a determination as to whether the weakness was material
or non-material. For any weaknesses identified as material, the weakness was to be
described in the certification sent to the Bureau’s MAO. Additionally, the Bureau’s MAO
reviewed the material weaknesses reported by the individual Missions and decided whether
they were material from an overall Bureau viewpoint. If the MAO decided the weakness
was material, he reported it in the Bureau’s certification to USAID’s Administrator. The


                                             6
Bureau did not maintain any documentation supporting their basis for determining whether
an identified weakness was material or non-material.

Tracking of Corrective Actions

For the weaknesses identified in the questionnaires, the Bureau did not maintain any
documentation that identified the corrective action that was to be taken to resolve the
identified weakness and the date by which the action was to be taken.

The Bureau did not adequately document all components of its assessment because it
believed the extent of documentation that it gathered was sufficient and did not realize
the necessity of requiring greater documentation for its assessment process. The effect of
not fully documenting its FY 1998 assessment is that the Bureau cannot fully support the
extent of analysis and review that went into the assessment of its internal controls.
Additionally, considering the rate of turnover in staff that is common in USAID due to
the normal employee rotation and other factors, maintaining the quality and consistency
of USAID’s internal control assessment is very difficult, if not impossible, if the process
is not thoroughly documented.


Has the USAID Bureau for Africa reported material weaknesses in
accordance with the Federal Managers' Financial Integrity Act and
related regulations and guidance?

The USAID Bureau for Africa performed an evaluation of its management controls for FY
1998 and reported one material weakness (described below) in accordance with the FMFIA
and related regulations and guidance.

For FY 1998, the material weakness that the Bureau reported was its reliance upon the New
Management System (NMS) and its suit of modules: AA, AWACS, BUD and OPS. The
Bureau stated that reports generated by the NMS have not been timely, accurate, nor easily
usable by Bureau management. As a result of this weakness, the Bureau stated numerous
“cuff records” are created to serve as backups to NMS and that relying on these “cuff
records”, the Bureau management runs a high risk of over obligation, under obligation or
improper stewardship of USAID resources. For FY 1999, the Bureau again reported the
same material weakness.

The Office of Management and Budget (OMB) Circular No. A-123 requires that a
management control deficiency should be reported if it is, or should be, of interest to the
next level of management. This allows the chain of command structure to determine the
relative importance of each deficiency. Along these lines, USAID's ADS Chapter 596 and
M/MPI's FY 1998 instructions require that the Bureau provide a FMFIA certification to the
cognizant Assistant Administrator, with a copy to M/MPI, on the overall adequacy and
effectiveness of management controls. This certification should identify management
control deficiencies determined to be material weaknesses, including those that are not
correctable within the Bureau’s authority and resources.

                                            7
Has the USAID Bureau for Africa taken timely and effective action to
correct identified management control deficiencies in accordance with the
Federal Managers' Financial Integrity Act and related regulations and
guidance?

The Bureau has not taken timely and effective action to correct all deficiencies it
identified during the FY 1998 Federal Managers’ Financial Integrity Act (FMFIA)
assessment.

The Bureau identified one material weakness in its FY 1998 FMFIA certification and
numerous other non-material weaknesses related to its internal controls. However, the
Bureau did not prepare corrective action plans to track the resolution of the identified
non-material weaknesses as required by U.S. Government regulations and USAID
guidance. As a result, there is no documentation available showing that the identified
weaknesses were periodically reviewed and discussed and corrective actions taken.

At the time of our audit, the Bureau had also completed its FY 1999 FMFIA certification,
identifying one material weakness and other non-material weaknesses. As with the 1998
FMFIA assessment, the Bureau did not prepare corrective action plans to track identified
non-material weaknesses. The Bureau, in conducting its FY 1999 FMFIA, did not review
the FY 1998 FMFIA assessment to determine if the weaknesses identified were the same
ones being identified in 1999. Thus, some weaknesses were not tracked from year to
year allowing weaknesses to remain uncorrected for excessive periods of time. In
addition, the Bureau needs to establish procedures to better document the Bureau’s
review and approval of corrective actions taken to resolve weaknesses.

Corrective Actions Need to be Tracked,
More Timely and Better Documented

OMB and USAID guidance state that corrective action plans for identified management
control deficiencies will be developed and managers shall track progress to ensure timely
and effective results. Although the Bureau had identified material and non-material
management control weaknesses in its FY 1998 and 1999 FMFIA assessments, it did not
develop corrective action plans to track identified non-material weaknesses to ensure
timely corrective action. In addition, there was a lack of documentation to support
completed corrective actions on identified weaknesses. This occurred because the
Bureau was not fully aware that all weaknesses, including non-material weaknesses,
needed to be tracked. Moreover, they were not aware that target corrective action dates
needed to be established and that the determination that weaknesses were corrected had
to be in writing. As a result, Bureau operations are placed at risk because identified
management control weaknesses remain uncorrected and there is a lack of documentation
supporting the corrective actions taken.




                                           8
       Recommendation No. 3: We recommend that the USAID Bureau for Africa:

       3.1    establish corrective action plans for the management control
              weaknesses identified in the Fiscal Year 1998 and 1999 Federal
              Managers’ Financial Integrity Act management control assessments
              that have not already been corrected.

       3.2    establish documented procedures to monitor planned corrective
              actions, specifically noting the planned corrective action dates, and in
              those instances where the corrective actions are not completed by the
              original correction date, the Bureau should document why the
              correction date was not met and revise the target correction date
              accordingly.

       3.3    formalize the review and approval of corrective actions taken on
              identified management control weaknesses by requiring the
              submission of a closure memorandum for approval/disapproval for
              each identified control weakness being considered for closure and
              require that the closure memorandums be maintained in a central
              location under the control of the Bureau’s Management
              Accountability Officer.

OMB Circular A-123 and USAID’s ADS Chapter 596 state that agency managers are
responsible for taking timely and effective action to correct deficiencies identified.
Furthermore, corrective action plans should be developed and tracked internally by each
assessable unit. ADS 596.5.1(i) specifically states “Managers shall promptly evaluate
and determine proper actions in response to known deficiencies … Managers shall
complete, within established timeframes [italics added], all actions that correct or
otherwise resolve deficiencies.”

OMB Circular A-123 specifically states, “A determination that a deficiency has been
corrected should be made only when sufficient corrective actions have been taken and the
desired results achieved. This determination should be in writing, and along with other
appropriate documentation, should be available for review by appropriate officials.”

All management control weaknesses identified during the FMFIA assessments are to be
tracked, including non-material weaknesses. For example, USAID’s FY 1998 FMFIA
guidance stated that “Although bureaus and independent offices are only required to
provide detailed information on deficiencies that are determined to be “material
weaknesses”, documentation should be maintained to support the certification and all
identified deficiencies.” OMB Circular A-123 is more specific and states, “For
deficiencies that are not included in the Integrity Act report, corrective action plans
should be developed and tracked internally at the appropriate level.” Thus, once the
Bureau identifies management control weaknesses, it is their responsibility to track those
weaknesses until they are corrected.


                                            9
Our review of the Bureau’s FY 1998 FMFIA assessment process found that even though
the Bureau had identified and reported one “material” management control weakness, the
Bureau did not document and track non-material weaknesses. This is not to say that the
Bureau did not identify non-material weaknesses. For example, our review of
documentation submitted by the various Bureau offices showed that at least another 30
management controls, over and above the one reported as a “material” weakness, were
identified by Bureau staff with notations such as, “No”, “?”, “in process”, “needs work”,
etc. We were unable to determine exactly how many of these other weaknesses should
have had corrective action plans developed, and the actions tracked, since there was no
Bureau documentation on discussions concerning these weaknesses.

Additionally, our review showed that seven weaknesses identified in the Bureau’s 1998
FMFIA management control assessment were also identified as weaknesses in the
Bureau’s 1999 FMFIA assessment. The Bureau did not formally discuss the status of the
1998 weaknesses when the 1999 FMFIA was being prepared, thus 1998 weaknesses were
not identified and tracked into 1999. Since these same seven weaknesses appeared in two
consecutive years, it brings into question the timeliness of the Bureau’s actions in
resolving identified weaknesses.

For example, in making its 1998 FMFIA certification statement on November 19, 1998,
the Bureau’s Office of Sustainable Development noted two management concerns. One
of these concerns pertained to the management control technique that stated: “A signed
management contract is in place which summarizes agreement on strategic and other
objectives pursued by the operating unit, resources levels, delegations of authority and
any other special management concerns or agreements." The Office of Sustainable
Development’s answer for this technique was, “to our knowledge there has not been a
formal management contract issued by the Bureau.”

For the 1999 FMFIA certification, dated October 1, 1999, the Office of Sustainable
Development once again noted the lack of a management contract as a management
concern and stated: “the issuance of a signed management contract by the Bureau has not
yet taken place.” Discussions with the Office of Sustainable Development on March 29,
2000 indicated that the management contract had been completed but was being
circulated within the Bureau for approval signatures. Thus, it has taken more than 16
months to address this management control weakness. However, the Office of
Sustainable Development’s 1997 FMFIA certification statement and accompanying
management checklist could not be located making it impossible to determine if this (lack
of a management contract) weakness had existed prior to 1998. Regardless, the
corrective actions for this identified management control weakness were not tracked by
the Bureau in order to ensure that actions taken were timely and effective.

Another example of a management control weakness that was identified by the Bureau
for several consecutive years pertains to “A Records Inventory and Disposition Plan …”.
This weakness was identified in the FY 1997, 1998 and 1999 FMFIA assessments. There
was no documentation available to indicate that the Bureau had taken action to track and
correct this identified weakness.

                                           10
In discussions with Bureau officials, we determined that the Bureau had made no attempt
to identify and track the actions taken to correct management control weaknesses
identified by the individual Bureau offices. The individual Bureau offices were not
required to submit FMFIA assessment checklists to the Bureau official responsible for
coordinating the FMFIA process. Offices were only required to return the FMFIA
Certification that identified “material” weaknesses to the coordinating official, no
emphasis was placed on “non-material” weaknesses.

We believe that once the Bureau identifies both material and non-material weaknesses
through its FMFIA assessment process, it is the responsibility of the Bureau, as an
assessable unit, to develop a corrective action plan to track the weaknesses until they are
resolved.

As part of this process, the Bureau needs to establish procedures for monitoring the
corrective action plan and the eventual closure of the weaknesses. Specifically, the
Bureau needs to formalize the procedures for (1) monitoring the planned corrective action
dates, such that, when the dates are not met, an explanation is given and a justification is
provided for establishing a new corrective action date, and (2) the closure of identified
weaknesses by requiring the submission of supporting documentation to the Bureau’s
management control committee for its review and approval.

Without closely monitoring its planned corrective actions, the Bureau places its
operations at greater risk i.e., identified unsatisfactory management controls remain
unchanged for excessive periods of time. Moreover, without adequate documentation,
the Bureau cannot provide the basis for closing identified weaknesses and justify
corrective closure actions. As a result, the Bureau is not in compliance with USAID
policy and procedures and OMB Circular No. A-123 concerning timely action to correct
management control deficiencies, thereby placing the Bureau’s resources at greater risk.




                                            11
____________________________________________________________
Management Comments and Our Evaluation

In its response to our draft report, USAID’s Africa Bureau provided written comments
that are included in their entirety as Appendix II. Based on our evaluation of these
comments, we consider that the Africa Bureau has made management decisions on each
of the recommendations in this final report.

Recommendation No. 1.1 recommended that the Africa Bureau formally appoint a
management accountability official by means of an Africa Bureau Standard Operating
Procedure describing the official’s role and responsibilities. The Bureau stated that the
financial operations specialist had been formally designated as the Bureau Management
Control Official (to serve as the management accountability official) by a revision of that
position description to make this function more explicit.

Recommendation 1.2 recommended that the Bureau establish by means of an Africa
Bureau Standard Operating Procedure a committee to oversee the Bureau’s management
control processes and assessment, and the procedure should describe the roles and
responsibilities of the committee. The Africa Bureau in their comments stated that they
have prepared an action memorandum establishing a committee and describing its
function in implementing the FMFIA. The action memorandum will be distributed as an
Africa Bureau Standard Operating Procedure. They expect to have these actions
completed by October 25, 2000.

Recommendation No. 2 recommended that the Africa Bureau establish procedures to
fully document all components of the assessment process it performs of its internal
controls in compliance with the Federal Managers Financial Integrity Act (FMFIA). The
Africa Bureau has indicated their agreement with this recommendation and their plan to
implement it.

Recommendation No. 3.1 recommended that the Africa Bureau establish corrective
action plans for the control weaknesses identified in the FY 1998 and 1999 FMFIA
management control assessments. The Bureau stated in their comments that they plan to
develop a Corrective Action Plan form to follow-up on actions taken to correct current
and prior year identified weaknesses.

Recommendation No. 3.2 recommended that the Africa Bureau document procedures to
monitor planned corrective actions specifically noting action dates and documenting why
a correction date was not met and revise the target correction dates accordingly. The
Bureau in their comments stated that in the course of conducting the FY 2000 review, the
Bureau Management Control Committee will meet to review the control weaknesses
identified in the FY 1998 and 1999 reviews and enter them on the corrective action plan,
together with planned completion dates for corrective actions to be taken.

Recommendation 3.3 recommended that the Africa Bureau formalize the review and
approval of corrective actions taken on identified management control weaknesses by

                                            12
requiring the submission of a closure memorandum for each control weakness and
requiring that the memorandum be maintained in a central location. The Bureau in their
comments stated that a sample control weakness closure memorandum will also be
distributed to all participating Africa Bureau offices as a part of the Bureau’s yearly
assessment process.




                                          13
                                                                            APPENDIX I
                                                                             Page 1 of 2



                                SCOPE AND
                              METHODOLOGY


Scope

We audited the USAID Bureau for Africa’s (hereinafter referred to as the Bureau)
implementation of the Federal Managers' Financial Integrity Act (FMFIA). The audit was
performed in accordance with generally accepted government auditing standards and was
conducted from March 15, 2000 through March 31, 2000, at the Bureau’s offices in
Washington D.C.

We audited the Bureau's FY 1998 FMFIA assessment and the deficiency noted under its FY
1997 assessment. The purpose of the audit was not designed to identify all the material
weaknesses not reported by the Bureau; however, if any previously unreported weaknesses
came to our attention during the audit, we included these weaknesses in our audit report.
Also, the scope of this audit did not include a detailed analysis of individual management
controls to determine their effectiveness.

Methodology

The audit work included reviewing the Bureau's system for establishing, assessing, reporting
and correcting management controls. To accomplish the audit objectives, we used the
FMFIA, Office of Management and Budget Circular No. A-123, General Accounting
Office's (GAO) "Standards for Internal Control in the Federal Government,” USAID's
Automated Directives System (ADS) Chapter 596 on Management Accountability and
Control, other ADS Chapters relating to USAID‘s policies and essential procedures,
guidance for assessing the adequacy of management controls and annual instructions for
reporting the status of management controls provided to the Bureau by USAID.
                                                                          APPENDIX I
                                                                            Page 2 of 2


We interviewed the Bureau’s Management Control Official and members of the Bureau’s
various office management staff involved in its FMFIA assessment process. We reviewed
available documentation on the FY 1998 FMFIA review, including the cited management
control deficiency. We reviewed the Bureau’s FY 1998 FMFIA Certification to the
Administrator of USAID on the overall adequacy and effectiveness of management
controls, noted any material weaknesses identified, and reviewed the status of any material
weaknesses or deficiencies identified in the FY 1997 review.

We also reviewed the Bureau’s documentation for its FMFIA assessment for FY 1999 to
determine if FY 1998 identified weaknesses that had not been corrected were properly
carried over to the following year and tracked as required.

Finally, we reviewed recent Office of Inspector General audit reports and evaluations
performed at the Bureau to identify potential material weaknesses.




                                            2
2
3
